                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDLTM


ITO: AIGI           File Number: I91050012                                          Date: 5 June 2002


Il   Subject: Closeout Memo                                                                   Page 1 of 1


           There was no closeout written at the time this case was closed. The following information was
           extracted from the file in conformance with standard closeout documents.

           Our office was informed that the awardee' was alleged to have violated conflict of interest
           restrictions and participated in improper contracting of an NSF division's contracts. OIG Internal
           Audit and Investigations uncovered no major violations.

           Accordingly, this case is closed.




                     Prepared by:                     Cleared by:

                    Agent:          Attorney:       Supervisor:
                                                                                  11 3
      Signature &
         date:
